                     UNITED STATES DEPARTMENT OF EDUCATION

                                  OFFICE OF INSPECTOR GENERAL

                                       61 FORSYTH STREET, Room 18T71

                                          ATLANTA, GEORGIA 30303


Telephone: (404) 562-6470	                                                                        Fax: (404) 562-6509



MEMORANDUM
DATE:	            July 28, 2003

TO:	              Jack Martin

                  Chief Financial Officer

                  U.S. Department of Education

FROM:	            J. Wayne Bynum         s/J. Wayne Bynum

                  Regional Inspector General for Audit

                  Region IV


SUBJECT:	         FINAL AUDIT REPORT
                  Contract Closeout Audit of Office of Educational Research and
                  Improvement Contract No. RJ96006001 At Appalachia Educational
                  Laboratory
                  Control Number ED-OIG/A04-C0020


Attached is the subject report presenting our finding and recommendations resulting from our contract 

closeout audit of OERI Contract No. RJ96006001 with the Appalachia Educational Laboratory in 

Charleston, WV. 


In accordance with the Department’s Audit Resolution Directive, you have been designated as the 

action official responsible for the resolution of the findings and recommendations in this report. 


If you have any questions, please contact me at 404-562-6477 or Assistant Regional Inspector General 

Mary Allen at (404-562-6465).


Please refer to the above control number in all correspondence relating to this report.


Attachment

cc: 	Glen Perry, Director, Contracts and Purchasing Operations, OCFO

     Cynthia Bond-Butler, Audit Liaison Officer, CPO, OCFO



   Our mission is to promote the efficient and effective use of taxpayer dollars in support of American education.
                     Contract Closeout Audit of 

          Office of Educational Research and Improvement 

                      Contract No. RJ96006001 

               At Appalachia Educational Laboratory 



                                 FINAL AUDIT REPORT 





                                            ED-OIG/A04-C0020 

                                                July 2003 



Our mission is to promote the efficiency,                        U.S. Department of Education
effectiveness, and integrity of the                                Office of Inspector General
Department’s programs and operations.                                         Atlanta, Georgia
Statements that managerial practices need improvements, as well as 

other conclusions and recommendations in this report, represent the 

   opinions of the Office of Inspector General. Determinations of

    corrective action to be taken will be made by the appropriate 

                  Department of Education officials. 




   In accordance with the Freedom of Information Act (5 U.S.C. 

    § 552), reports issued by the Office of Inspector General are 

 available, if requested, to members of the press and general public 

    to the extent information contained therein is not subject to 

                        exemptions in the Act.

                                        TABLE OF CONTENTS 





EXECUTIVE SUMMARY ........................................................................... 1 


AUDIT RESULTS......................................................................................... 2 


        Finding 1 – Draw Downs of Federal Funds Exceeded Allowable 

        Contract Costs...................................................................................... 2 


        Recommendation ....………………………………………………….3 


        Finding 2 – Direct and Indirect Costs Incurred in Excess of 

        Amounts Allowed by the Contract ...................................................... 4 


        Recommendation……………………………………………... ……..5 


BACKGROUND ........................................................................................... 6 


OBJECTIVE, SCOPE, AND METHODOLOGY......................................... 6 


STATEMENT ON MANAGEMENT CONTROLS..................................... 9 


ATTACHMENT - WRITTEN RESPONSE TO THE DRAFT REPORT.. 10 





ED-OIG/A04-C0020                           FINAL REPORT                                                        Page i
                                      EXECUTIVE SUMMARY 




The Appalachia Educational Laboratory (AEL) in Charleston, WV, is a non-profit education
research and development institution that performs contract work for the Department of
Education (Department). The Department’s Office of Educational Research and Improvement1
(OERI) issued Contract No. RJ96006001 to AEL for the period December 1995 through
December 2000. The audit objective was to determine whether costs claimed were incurred,
allowable, and adequately supported.

Total funds drawn down by AEL for the contract were $24,316,470. The total allowable contract
amount was $23,971,940. Thus, AEL received $344,530 more than the total approved contract
amount.

AEL incurred indirect costs of $258,983 in excess of the amount allowable by the contract. The
provisional indirect cost rate was 21.6 percent. AEL requested a final indirect cost rate of
26.6 percent based on actual indirect cost expenditures. The Office of the Chief Financial
Officer, Indirect Cost Group approved the final indirect cost rate. However, the contracting
officer had not modified the contract limit to reflect this increase.

We recommend that the Chief Financial Officer require AEL to return contract overpayments
totaling $344,530. We also recommend that the Chief Financial Officer make a determination
whether to modify the contract to allow the additional indirect costs incurred. If the contract
limit is increased to cover the indirect cost overrun, the amount that AEL owes the Department
will be reduced to $85,547 ($344,530 overpayments less $258,983 additional indirect costs).

AEL concurred that it received $344,530 in excess funds for the contract. AEL pointed out that
Federal law allows contractors to request a contract appropriation to cover indirect cost overruns
when unspent program funds are available, and that AEL has pending a request for an additional
modification to collect $258,983 in indirect cost expenditures at the rate approved by the cost
determination branch for fiscal year 2000 (26.6 percent). AEL awaits a decision on the contract
modification before refunding either the full $344,530 or the $85,547 that it believes the
Government is due.


1
 The Education Sciences Reform Act of 2002, dated November 5, 2002, replaced the Office of Educational
Research and Improvement (OERI) with the Institute of Education Sciences. For the purposes of this report, the
name of the former agency is used since the contract was issued by and completed under OERI.

ED-OIG/A04-C0020                                 FINAL REPORT                                Page 1 of 11
                                    AUDIT RESULTS 




Except as noted below and within the context of our scope of work described in the report, we
found that the costs billed by AEL were incurred, allowable, and supported. We found that AEL
received $344,530 more than the total allowable contract amount and that AEL incurred
$258,983 in indirect costs in excess of the amount allowed by the contract. The table below
summarizes the results of our review:

                                                          OIG
                                                       Determined
                                      Contractor       Allowable      Questioned     Finding
                                     Claimed Cost         Cost          Costs        Number


     Direct costs claimed              $18,939,269      $18,939,269           $0
     Indirect costs claimed             $4,593,442       $4,334,459     $258,983         2
     Management Fee claimed               $698,212         $698,212           $0
     Total contract costs claimed      $24,230,923      $23,971,940     $258,983

     Contract Funds Drawn              $24,316,470      $23,971,940     $344,530         1




Finding No. 1 – Draw Downs of Federal Funds Exceeded Allowable Contract Costs



AEL received $344,530 in excess funds from the Department for Contract No. RJ96006001.
From December 1995 (beginning of the contract) to December 1997, the Department of
Education used the Payment Management System (EDPMS) for contract payments. Using this
system, AEL drew down funds on an as needed basis for all of its contracts and reported back to
the Department the amounts disbursed for each contract. In December 1997, the Department
switched to the Education Central Automated Processing System (EDCAPS) for contract
payments, a reimbursement payment system. Cash on hand as of March 31, 1998, and
drawdowns during April 1998 were assigned by the Department in May 1998 to all open awards


ED-OIG/A04-C0020                         FINAL REPORT                         Page 2 of 11
based on an algorithm. The AEL comptroller performed reconciliation in September 2000 to 

determine the amount allocated to Contract No. RJ96006001 at the time the Department assigned 

funds to the awards. 


The total funds drawn down by AEL for Contract No. RJ96006001 was $24,316,470. We

verified that this amount included all disbursements under the EDPMS system, the allocation of 

funds by the Department at the time of the switch to the EDCAPS system, a cash advance that 

AEL received from the Department, and all reimbursements made to AEL under the EDCAPS 

payment system. We determined that the total allowable contract amount was $23,971,940.

Thus, AEL received $344,530 more than the total allowable contract amount ($24,316,470 total 

payments received less $23,971,940 total allowable contract costs). 


The Government's payment obligation is limited to allowable cost amounts. Contract 

No. RJ96006001, Section G.4, Invoice and Contract Financing Request Submission, states: 


       The Government agrees to pay the Contractor as complete compensation for
       all work and services performed and materials furnished under this contract
       those allowable costs defined in the contract clause entitled 'ALLOWABLE
       COST AND PAYMENT' in the amount not to exceed the estimated costs
       specified in the contract.

RECOMMENDATION

The Chief Financial Officer should require AEL to:

1.1   Return $344,530 received in excess of the total allowable contract amount.

AEL RESPONSE

AEL’s written response to the draft report, a copy of which is attached to this report, concurred
that AEL received $344,530 in excess funds for REL Contract RJ96006001. The response stated
that significant increases in direct costs in fiscal years (FY) 1999 and 2000 and in costs charged
to indirect in FY 2000 resulted in an overrun of the REL contract. The direct cost overrun was
recorded as a loss in the corporate reserve in FY 2001. Federal law allows contractors to request
a contract appropriation to cover indirect cost overruns. When unspent total program funds are
available as they are in this case, the contracting officer may grant such an additional
appropriation. OERI delayed a final ruling on the request pending two activities: The
negotiation of the final indirect cost rate for FY 2000 and the completion of the OIG audit. AEL
has pending a request for an additional modification to collect $258,983 in indirect cost
expenditures at the rate approved for FY 2000 (26.6 percent). AEL notified the Department of

ED-OIG/A04-C0020                          FINAL REPORT                          Page 3 of 11
the overpayment and awaits a decision on the contract modification before refunding either the
full amount or the $85,547 that it believes the Government is due.

OIG COMMENTS

The drawdown of $344,530 in excess funds is separate from the issue of whether the Department
will provide an appropriation to cover the additional indirect cost incurred by AEL. AEL should
have returned the $344,530 to the Department when it determined in September 2000 that it had
received excess funds. See Finding 2 for a discussion of the indirect cost issue.



Finding No. 2 – Direct and Indirect Costs Incurred in Excess of Amounts Allowed by the
Contract



AEL incurred indirect costs of $258,983 and direct costs of $54,074 in excess of the amount
allowable in the contract. AEL submitted a claim for reimbursement for the indirect cost
overrun. It did not submit a claim for reimbursement for the direct cost overrun. The
provisional indirect cost rate was 21.6 percent for FY 2000. AEL requested and received from
the Department a final indirect cost rate of 26.6 percent for FY 2000 based on actual indirect cost
expenditures. Total indirect costs claimed exceeded the allowable contract limit by $258,983.

Although the contracting office had approved a final indirect rate for AEL that covered the
indirect cost overrun, a determination had not been made whether to amend the contract limit to
cover the additional indirect cost.

Contract No. RJ96006001, Section G.4, Invoice and Contract Financing Request Submission,
states:

       The Government agrees to pay the Contractor as complete compensation for
       all work and services performed and materials furnished under this contract
       those allowable costs defined in the contract clause entitled 'ALLOWABLE
       COST AND PAYMENT' in the amount not to exceed the estimated costs
       specified in the contract.




ED-OIG/A04-C0020                          FINAL REPORT                          Page 4 of 11
RECOMMENDATION

The Chief Financial Officer should:

2.1 	 Make a determination whether to modify the contract limit to cover the additional indirect
      costs incurred. If the Chief Financial Officer modifies the contract to allow the additional
      indirect costs incurred, the amount owed to the Department under Recommendation 1.1
      above will be $85,547 ($344,530 contract overpayment less $258,983 additional indirect
      costs).

AEL RESPONSE

AEL concurred that it incurred direct and indirect costs in excess of amounts allowed by the
contract. The response stated that this is frequently the case, particularly when projecting
expenditures in advance for a multi-year period. AEL objected to the finding on the basis that
(1) the direct cost overrun has been absorbed by the corporation, (2) AEL notified the
Government in advance of the anticipated overrun in indirect costs, and was informed that if
sufficient program funds were left, an appropriation to cover the overrun in indirect costs would
likely be provided, and (3) if an appropriation for those costs is not provided, the Government
will have no loss or liability, the loss will be absorbed by the corporation.

OIG COMMENTS

The Chief Financial Officer will determine the extent to which the contract may be modified to
cover indirect costs. We did not amend the finding or recommendation.




ED-OIG/A04-C0020 	                        FINAL REPORT                           Page 5 of 11
                                      BACKGROUND 




AEL is a private, nonprofit education research and development institution that serves as one of
the Federally supported Regional Educational Laboratories. AEL is located in Charleston, WV,
and primarily serves the States of Kentucky, Tennessee, Virginia, and West Virginia. AEL is
governed by a 28-member Board of Directors composed of representatives from various State
Departments of Education, higher educational institutions, teachers’ associations, school
administrators’ associations, and the public at large.

The Regional Educational Laboratory Program is the Department’s largest research and
development program designed to help educators, policy makers, and communities improve
schools. The program’s statutory mission is “to promote knowledge-based school improvement
to help all students meet high standards and to help the nation meet the National Educational
Goals” (Public Law 103-227, enacted in 1994). Although AEL had supplementary funding
through other grants and contracts, its primary source of funding was through OERI.

Contract No. RJ96006001 was a cost-reimbursement plus fixed fee contract. OERI and the
Contract and Purchasing Operations were responsible for overseeing the contract. The period of
performance of the contract was December 11, 1995, through December 10, 2000, and the total
allowable contract limit was $23,971,940.



                    OBJECTIVE, SCOPE, AND METHODOLOGY 




The audit objective was to determine whether costs claimed were incurred, allowable, and
adequately supported. Audit coverage included Contract No. RJ96006001 for the period
December 1995 to December 2000. Our review focused on the following areas:

   •	   Accumulating and reporting contract costs,
   •	   High-risk cost categories,
   •	   Contract payments, and
   •	   Reconciliation of funds received from the Department during the switch from the
        EDPMS system to the EDCAPS (GAPS) system.



ED-OIG/A04-C0020 	                       FINAL REPORT                          Page 6 of 11
To accomplish our objective, we:

   •	   Interviewed AEL's management officials and staff,
   •	   Reviewed Contract No. RJ96006001, including the statement of work,
   •	   Reviewed the OMB Circular A-133 audit reports for years 1996 through 1999,
   •	   Reviewed laws and regulations to gain an understanding of allowable costs, and
   •	   Traced vouchers and payment data from the Department's records to AEL's 

        general ledger detail to verify payments received. 


The audit concentrated on fiscal years 1997 through 2000 since there was a previous audit (Audit
Control Number A03-70007) performed by the U.S. Department of Education, Office of
Inspector General that covered the period of December 1, 1995 through November 30, 1996.
There were no unresolved findings regarding the labor/payroll functions of AEL from the
previous audit report.

The following table shows the size of our judgment sample of labor costs and nonpayroll costs.

                               Records in        Dollar Value of             Dollar Value In
 Transaction Description        Sample          Judgment Sample                Population
 Labor Costs                            40                  $93,979                  $12,135,785
 Nonpayroll Costs                         81                 $202,481                 $ 6,857,558

To test labor costs, we judgmentally selected 40 employee records for review for the contract
period. There were 12 reimbursement claim invoices for each fiscal year of the contract. Each
invoice had seven task orders to which funds were allocated on a monthly basis. We tested
invoices during the four fiscal years 1997 through 2000. We selected two invoices per year and
within those invoices one task order and within that task order a judgment sample of five
employees based on high, medium, and low salary levels. The payroll for the selected employees
was verified for accuracy, allocable, and reasonableness. We traced the records to supporting
documentation to verify that costs claimed were incurred, allowable, and adequately supported.

To test nonpayroll costs, we judgmentally selected 81 expenditures from the reimbursement
claim invoices. The expenditures were selected based on high cost items in each category.
Three invoices were selected from each of the 1998, 1999, and 2000 fiscal years for a total of 9
invoices. Within those invoices, we selected one of the seven task orders performed under the
contract to select expenditures to be tested for a total of nine task orders reviewed. The
nonpayroll direct cost items tested were professional services, subcontracts, travel, meeting and
conferences, publication and printing, communications, general supplies, equipment, and other
direct costs. We obtained the supporting detail expense reports of costs claimed for the month

ED-OIG/A04-C0020 	                        FINAL REPORT                          Page 7 of 11
selected by task order. These cost items were tested to verify that they were supported by
invoice, authorized, related to task order, and supported by cancelled check. We reviewed the
supporting documentation (i.e., purchase requisitions, invoices, travel vouchers, subcontractor
agreements, etc.) to determine if the expenditures were supported, approved, reasonable, and
allowable to the contract.

To determine the proper identification and allocation of indirect cost we relied principally on the
work performed by the OMB Circular A-133 auditor. We reviewed AEL’s 1996 through 2000
OMB Circular A-133 audit reports and did not identify any problems with indirect cost
identification and allocations. In addition, we visited the OMB Circular A-133 auditor to review
the 1999 and 2000 audit working papers to review the extent of the audit testing of indirect cost
rates. We limited our review of AEL indirect costs to concerns identified by the Department’s
Indirect Cost Rate Group. The Supervisor of the Indirect Cost Rate Group suggested that we
review indirect cost items that had a significant increase for fiscal year 2000. For the fiscal year
2000 indirect rate submission, we requested detailed cost reports and tested 43 indirect cost
items. From these cost reports, we judgmentally sampled high cost items in each category of
indirect cost reviewed to determine that the costs were allowable in accordance with OMB
Circular A-122.

We did not rely extensively on computer-processed data extracted by AEL for use in analyzing
costs billed to the contract. AEL could not provide a detailed printout of direct and indirect cost
items for the entire period of the contract. Therefore, we judgmentally selected invoices and cost
items in the invoices. From the selected invoices, we reviewed the supporting detail for each
task order. Our review of payroll costs, nonpayroll costs, and indirect costs did not disclose any
problems with the project cost detail reports. As a result, we relied principally on the invoiced
reimbursement vouchers submitted by AEL to the Department and AEL's hardcopy payroll and
accounts payable detail ledger to support AEL's claimed cost under the contract.

Although we did not extensively rely upon AEL's computer system to verify cost claimed under
the contract, nothing came to our attention during our review of direct and indirect cost which
would indicate those computer systems were inaccurate. AEL's OMB Circular A-133 audits for
1996 through 2000 did not disclose any problems with AEL's information systems.

The audit covered the contract period December 1997 through December 2000. Audit work was
performed during the period October 2002 through January 2003. We conducted an exit
conference with AEL officials on March 25, 2003.

The audit was conducted in accordance with generally accepted government auditing standards
appropriate to the scope of review described above.


ED-OIG/A04-C0020                           FINAL REPORT                           Page 8 of 11
                  STATEMENT ON MANAGEMENT CONTROLS 




As part of the audit, we assessed the system of management controls, policies, procedures, and
practices applicable to AEL’s administration of the contract. Our assessment was performed to
determine the level of control risk for determining the nature, extent, and timing of substantive
tests to accomplish the audit objective. Due to inherent limitations, an evaluation made for the
limited purposes described above would not necessarily disclose all material weaknesses in the
management controls. No management or internal control weaknesses were identified while
determining if direct and indirect costs claimed under the contract were incurred, allowable, and
adequately supported.




ED-OIG/A04-C0020                          FINAL REPORT                          Page 9 of 11
ATTACHMENT – WRITTEN RESPONSE TO THE DRAFT REPORT 





                                                                                                 POST OFFICEBox 1348
                                                                                        CHAKlESTON,  WV 25325- 1348
                                                                                                        304-347 -04UO
                                                                                                        800-624-9120
                                                                                                    F;x 304-347-0487



                                                                                                           AEL   ARLINGTON

                                                                                     1700 N.   MOORE STREET, SUITE1275
                                                                                            ARLINGTON. VA   22209-190.1
          June 18,2003                                                                                    703-276-0200
                                                                                                      FAx 703-276-0266



          J, Wayne Bynwn
          Regional Inspector General
            for Audit, Region IV
          61 Forsyth Street, SW, Room 18T71
          Atlanta. Georgia 30303

          Dear Mr. Bynum:

          Attached are AEL's responses to the findings identified in your letter received May 19,
          2003 regarding your audit of Contract RJ9600600 1,

          If you have additional questions or need clarification of our responses, please contact
          Vice President for Administration E. Jane Copley or me,




          Allen D, Arnold
          President/CEO

          Enclosure




                                                                                                          SHIPPING ADDRESS:
                                                                                                   1031 QUARRIER STREET
                                                                                          CHARLESTON, WV 25301-2314

                                                                                                             www.ael.org
                                                                            An equal opportunity/affirmative action employer




ED-OIG/A04-C0020                               FINAL REPORT                                           Page 10 of 11

ATTACHMENT – WRITTEN RESPONSE TO THE DRAFT REPORT 





         Responses-Appalachia Educational Laboratory
         Contract RJ96006001
         Audit Control No. ED-OIG/A04-C0020
         June 18,2003



          Finding No.1 - Draw Downs of Federal Funds Exceeded Allowable Contract Costs

          AEL concurs that it received $344,530 in excess funds for REL Contract RJ 9600600 I.
          Significant increases in direct costs in FY 1999 and FY 2000 charged to the REL contract
          and significant increases in costs charged to indirect in FY 2000 resulted in an overrun of
          the REL contract in the amount of $313,057. The direct cost overrun totaled $54,074,
          and was recorded as a loss in the corporate reserve in FY 200 I. Federallaw allows
          contractors to request a contract appropriation to cover indirect cost overruns. In May of
          2000, AEL provided a verbal forecast of a significant indirect cost overrun. In early
          August 2000, AEL provided formal notification to Helen Chang, Carol Chelemer, and
          Kathy Fuller of the estimated pending $250,000 indirect cost overrun and provided
          formal notification to the contracting officer that the overrun was anticipated (actual
          overrun totaled $258,983). When unspent total program funds are available as they are in
          this case, the contracting officer may grant such an additional appropriation. OERI has
          delayed a final ruling on our request pending two activities. First, the negotiation of our
          final indirect cost rate for FY 2000. Second, the completion of the 010 audit of direct
          and indirect costs. Again, AEL has pending a request for an additional modification to
          collect $258,983 in indirect cost expenditures at the rate approved by the cost
          determination branch for FY 2000 (26.6%). Although the department changed payment
          procedures three times during the course of the contract, AEL' s records were exemplary
           in the tracking and recording of federal cash received allowing the oro to successfully
          verify the above balance. AEL had, however, already notified the Department of such
          overpayment and awaits a decision on the contract modification before refunding either
          the full amount or the $85,547 we believe the government is due.

          Finding No.2 - Direct and Indirect Costs Incurred in Excess of Amounts Allowed
          by the Contract

          AEL concurs that it incurred direct and indirect costs in excess of amounts allowed by the
          contract (slightly more than one-tenth of one-percent of the total contract). This is
          frequently the case, particularly when projecting expenditures in advance for a multi-year
          period. AEL objects to the finding on the basis that (I) the direct cost overrun has been
          absorbed by the corporation, (2) AEL notified the government in advance of the
          anticipated overrun in indirect costs, and was informed that if sufficient program funds
          were left, an appropriation to cover the overrun in indirect costs would likely be
          provided, and, (3) if an appropriation for those costs is not provided, the government will
          have no loss or liability, the loss will be absorbed by the corporation.




ED-OIG/A04-C0020                               FINAL REPORT                                     Page 11 of 11

